      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




December 20, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services

               /Joe Green/ for
FROM:          George M. Reeb
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicaid High-Dollar Payments for Inpatient Services in Illinois From
               January 1, 2006, Through September 30, 2007—Hospitals With Five or More
               High-Dollar Payments (A-05-09-00049)


Attached, for your information, is an advance copy of our final report on Medicaid high-dollar
payments for inpatient services in Illinois from January 1, 2006, through September 30, 2007, for
hospitals with five or more high-dollar payments. We will issue this report to the Illinois
Department of Healthcare and Family Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov or
James C. Cox, Regional Inspector General for Audit Services, Region V, at (312) 353-2621 or
through email at James.Cox@oig.hhs.gov. Please refer to report number A-05-09-00049.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601
December 22, 2010

Report Number: A-05-09-00049

Ms. Julie Hamos
Director
Illinois Department of Healthcare and Family Services
201 South Grand Avenue East
Springfield, IL 62763-00002

Dear Ms. Hamos:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid High-Dollar Payments for Inpatient
Services in Illinois From January 1, 2006, Through September 30, 2007—Hospitals With Five or
More High-Dollar Payments. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Stephen Slamar, Audit Manager, at (312) 353-7905 or through email at
Stephen.Slamar@oig.hhs.gov. Please refer to report number A-05-09-00049 in all
correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Julie Hamos


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL



      REVIEW OF MEDICAID
  HIGH-DOLLAR PAYMENTS FOR
 INPATIENT SERVICES IN ILLINOIS
FROM JANUARY 1, 2006, THROUGH
SEPTEMBER 30, 2007—HOSPITALS
      WITH FIVE OR MORE
    HIGH-DOLLAR PAYMENTS



                       Daniel R. Levinson
                        Inspector General

                         December 2010
                         A-05-09-00049
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

The Department of Healthcare and Family Services (the State agency) administers the Medicaid
program in Illinois. The State agency uses its Medicaid Management Information System to
process claims.

Pursuant to section 1903(a)(1) of the Act, Federal reimbursement is available only for
expenditures that constitute payment for part or all of the cost of services furnished as medical
assistance under the State plan. Pursuant to 42 CFR § 433.312(a), the State must refund the
Federal share of unallowable overpayments made to Medicaid providers.

During the audit period of January 1, 2006, through September 30, 2007, the State agency
processed and paid approximately 1.5 million inpatient claims, 286 of which resulted in
payments of $200,000 or more (high-dollar payments) to hospitals for services. We reviewed
224 high-dollar payments totaling $69,748,844 that were made to hospitals that each received 5
or more such payments during our audit period.

OBJECTIVE

Our objective was to determine whether selected high-dollar Medicaid payments that the State
agency made to hospitals for inpatient services were allowable.

SUMMARY OF FINDING

Not all the selected high-dollar Medicaid payments that the State agency made to hospitals for
inpatient services were allowable. Of the 224 high-dollar Medicaid payments that the State
agency made to hospitals for inpatient services, 75 were allowable. The remaining 149 payments
included overpayments totaling $2,173,482 ($1,124,978 Federal share). For 110 of the 149
payments, hospitals reported incorrect charges that resulted in unallowable outlier payments; for
39 payments, hospitals reported incorrect charges that resulted in unallowable payments for
transplant procedures. Hospital officials attributed the incorrect charges primarily to data entry
errors.




                                                 i
RECOMMENDATIONS

We recommend that the State agency:

    •   refund $1,124,978 to the Federal Government and

    •   consider using the results of this audit in its provider education activities related to data
        entry procedures and proper documentation.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings. However,
it said that repayment of the Federal share would not be required because all claims had been
resubmitted via the voiding process. The State agency drafted a provider notice reminding
hospitals of their responsibility to ensure the accuracy of claims that they submit. The State
agency’s comments are included in their entirety as the Appendix.




                                                  ii
                                                 TABLE OF CONTENTS


                                                                                                                          Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              Illinois’ Medical Assistance Payments for Inpatient Hospital Services .....1

         OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................2
              Objective ......................................................................................................2
              Scope ............................................................................................................2
              Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          FEDERAL REQUIREMENTS ................................................................................3

          STATE PLAN REQUIREMENTS .........................................................................3

          UNALLOWABLE HIGH-DOLLAR PAYMENTS ................................................4

          RECOMMENDATIONS .........................................................................................4

          STATE AGENCY COMMENTS ............................................................................4

APPENDIX

          STATE AGENCY COMMENTS




                                                                   iii
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Pursuant to section 1903(a)(1) of the Act, Federal reimbursement is available only for
expenditures that constitute payment for part or all of the cost of services furnished as medical
assistance under the State plan. Pursuant to 42 CFR § 433.312(a), the State must refund the
Federal share of unallowable overpayments made to Medicaid providers.

Illinois’ Medical Assistance Payments for Inpatient Hospital Services

The Department of Healthcare and Family Services (the State agency) administers the Medicaid
program in Illinois. The State agency uses its Medicaid Management Information System to
process hospital inpatient claims. 1

Attachment 4.19-A of the State plan describes the methods and standards that the State agency
must use to determine medical assistance amounts for inpatient hospital services.
Attachment 4.19-A, chapter I, section (C)(1), of the State plan requires the State agency to use a
prospective payment system (PPS) for inpatient hospital services. Under the PPS, the State
agency pays hospital costs at predetermined rates for patient discharges unless
Attachment 4.19-A of the State plan specifically excludes the cost from the PPS. 2 The rates vary
according to the diagnosis-related group (DRG) to which a beneficiary’s stay is assigned. The
DRG payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay. One of these exceptions is outlier payments. 3




______________________________
1
  The Medicaid Management Information System is a mechanized claims processing and information retrieval
system that States are required to use to record Title XIX program and administrative costs, report services to
recipients, and report selected data to CMS.
2
 Attachment 4.19-A, chapter I, section (C)(4), of the State plan excludes hospital costs for transplant procedures,
psychiatric services, and certain rehabilitation services from the PPS.
3
 Outlier payments occur when a hospital’s charges for a particular Medicaid beneficiary’s inpatient stay
substantially exceed the DRG payment (State plan, Attachment 4.19-A, chapter V, (C)(1) & (C)(2)).


                                                          1
During the audit period, the State agency processed a total of approximately 1.5 million inpatient
claims, 286 of which resulted in payments of $200,000 or more (high-dollar payments) to
hospitals for services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected high-dollar Medicaid payments that the State
agency made to hospitals for inpatient services were allowable.

Scope

We reviewed 224 of the 286 high-dollar payments for inpatient claims that the State agency
processed from January 1, 2006, through September 30, 2007. The 224 high-dollar payments,
which totaled $69,748,844, were made to hospitals that each received 5 or more such payments
during the period. We previously conducted a separate review of the remaining 62 high-dollar
payments, totaling $17,237,356, made to hospitals that each received fewer than 5 such
payments (A-05-09-00048).

We limited our review of the State agency’s internal controls to those applicable to the 224
claims because our objective did not require an understanding of all internal controls over the
submission and processing of claims. This review allowed us to establish a reasonable assurance
of the authenticity and accuracy of the data obtained from CMS’s Medicaid Statistical
Information System, but we did not assess the completeness of the data. 4

Methodology

To accomplish our objective, we:

      •    reviewed applicable Federal and State laws, regulations, and guidance;

      •    reviewed the CMS-approved Illinois State plan, including Attachment 4.19-A;

      •    extracted all high-dollar payments 5 for inpatient hospital services in Illinois from CMS’s
           Medicaid Statistical Information System file (286 claims from 49 hospitals);

      •    contacted the State agency to determine whether the 286 high-dollar payments had been
           canceled or superseded by revised claims, whether payments remained outstanding at the
           time of our fieldwork, and whether the State agency received Federal reimbursements to
           match high-dollar payments;
______________________________
4
 The Balanced Budget Act of 1997 (P.L. No. 105-33) requires that all State Medicaid programs submit claims and
eligibility data to CMS. CMS’s Medicaid Statistical Information System is the repository for this data.
5
    Payments of $200,000 or more were considered high-dollar payments for the purpose of this review.


                                                          2
   •   separated hospitals that received 5 or more high-dollar payments from hospitals that did
       not (15 hospitals with 224 high-dollar payments totaling $69,748,844);

   •   contacted officials from the 15 hospitals that received the 224 high-dollar payments to
       determine whether the information originally reported on the claims was correct and, if
       not, why the claims were incorrect and whether the hospitals agreed that refunds were
       appropriate;

   •   submitted to the State agency the corrected claims and related correspondence that we
       received from the hospitals; and

   •   verified with the State agency that inappropriate payments occurred and that refunds were
       appropriate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Not all the selected high-dollar Medicaid payments that the State agency made to hospitals for
inpatient services were allowable. Of the 224 high-dollar Medicaid payments that the State
agency made to hospitals for inpatient services, 75 were allowable. The remaining 149 payments
included overpayments totaling $2,173,482 ($1,124,978 Federal share). For 110 of the 149
payments, hospitals reported incorrect charges that resulted in unallowable outlier payments; for
39 payments, hospitals reported incorrect charges that resulted in unallowable payments for
transplant procedures. Hospital officials attributed the incorrect charges primarily to data entry
errors.

FEDERAL REQUIREMENTS

Pursuant to section 1903(a)(1) of the Act, Federal reimbursement is available only for
expenditures that constitute payment for part or all of the cost of services furnished as medical
assistance under the State plan. Pursuant to 42 CFR § 433.312(a), the State must refund the
Federal share of unallowable overpayments made to Medicaid providers.

STATE PLAN REQUIREMENTS

Attachment 4.19-A, chapter I, section (C)(5), of the State plan provides for outlier payments to
hospitals, in addition to prospective payments, for cases incurring extraordinarily high costs.
Pursuant to Attachment 4.19-A, chapter V, section (C)(2), of the State plan, outlier payments are
made to hospitals for covered inpatient services furnished to a Medicaid beneficiary if the
hospital’s charges, as adjusted by the hospital-specific cost-to-charge ratio, exceed the DRG
payment for the case.

                                                 3
Attachment 4.19-A, chapter X, section (A), of the State plan requires the State agency to pay
hospital costs for transplant procedures at an all-inclusive rate, which is limited to a maximum of
60 percent of the hospital’s usual and customary charges to the general public. 6

UNALLOWABLE HIGH-DOLLAR PAYMENTS

The State agency made 149 unallowable payments totaling $2,173,482 ($1,124,978 Federal
share), which hospitals had not refunded before the start of our audit. For 110 of the 149
payments, hospitals reported incorrect charges that resulted in unallowable outlier payments. For
the remaining 39 payments, hospitals reported incorrect charges that resulted in unallowable
payments for transplant procedures. Hospital officials attributed the incorrect charges primarily
to data entry errors.

RECOMMENDATIONS

We recommend that the State agency:

     •    refund $1,124,978 to the Federal Government and

     •    consider using the results of this audit in its provider education activities related to data
          entry procedures and proper documentation.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings. However,
it said that repayment of the Federal share would not be required because all claims had been
resubmitted via the voiding process. The State agency drafted a provider notice reminding
hospitals of their responsibility to ensure the accuracy of claims that they submit. The State
agency’s comments are included in their entirety as the Appendix.




______________________________
6
  The State agency’s Handbook for Hospital Services, chapter H-200, dated March 2010, defines “all-inclusive rate”
as “a specified rate that includes all services provided in an inpatient or outpatient setting for each day a patient is
treated.”


                                                           4
APPENDIX
                              APPENDIX: STATE AGENCY COMMENTS 



e       F:S
fH
                  IUIIIO'i OR ' •• ' _IMt Of
                  Hcalthcarc and                                              Pat Quinn, Governor
                  Family Services                                             Julie Hamos, Director


201 South Grand Avenue East                                                   Telephone: (217) 782- 1200 

Springf ield, Illinois 62763-0002                                             TTY: (800) 526-5812 




                                                Oc tober 29, 2010




     Department of Health and Human Services 

     Office of Audit Services. Region V 

     Attn: James C. Cox. Regional inspeclOr General for Audit Services 

     233 North Mich igan Avenue, Su ite 1360 

     Chicago, Illinois 6060 I 


     Re: Dmft Audit Report Nu mber A-05-09-00049

     Dear Mr. Cox:

     Thank you for provid in g the opponunily to co mment on your draft audit report enti ll ed " Review of
     Medicaid High-Dollar Payments for IlIplllielll Services ;11 Illinois From latl/wry i , 2006 nlrougb
     September 30. 2007 - Hospitals With Five or More High Dollar Paymenl.s".

    The Department concurs with the findings. Repayment of the federal share w ill not be req uired, as aU
    claims have been resubmitted via lhe voiding process, In addilion, a provide r notice hHs been drafted
    remind ing hospitals of their responsibility to ensure the accumcy of the claims they submit to Ihe
    Department for paymen!. We :.Ippreciale the work done by you r audit learn and will use th e report to
    consider changes in procedures 10 prevent s uch overpaymenL~ in the future.

    (f you have any ques tions or comme nts about our response 10 the aud it. please contact Peggy Edwards,
    Ex ternal Audit Liaison. at (2 17) 785-9764 or throu gh email at peggv.edwards@i iiinois.gov.

    Sincerely.



    JUl~~
    Direc tor
